No. 19-1078

In the Supreme Court of the United States
AT&T MOBILITY LLC; NEW CINGULAR WIRELESS PCS
LLC; NEW CINGULAR WIRELESS SERVICES, INC.,
Petitioners,
v.
STEVEN MCARDLE,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
REPLY BRIEF FOR PETITIONERS
ANDREW J. PINCUS
Counsel of Record
EVAN M. TAGER
ARCHIS A. PARASHARAMI
KEVIN RANLETT
DANIEL E. JONES
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
apincus@mayerbrown.com
Counsel for Petitioners

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES...................................... ii
A. The Decision Below Defies This
Court’s FAA Precedents. ............................... 3
B. The Issue Is Tremendously Important. ........ 8
CONCLUSION ......................................................... 13

ii
TABLE OF AUTHORITIES
Page(s)
Cases
American Express Co. v. Italian Colors
Restaurant,
570 U.S. 228 (2013) ............................................ 5, 6
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011) ...................................... passim
Booker v. Robert Half International,
Inc.,
413 F.3d 77 (D.C. Cir. 2005) .................................. 6
DIRECTV, Inc. v. Imburgia,
136 S. Ct. 463 (2015) .............................................. 7
Eiess v. USAA Fed. Savings Bank,
404 F. Supp. 3d 1240 (N.D. Cal. 2019) ................ 10
Epic Sys. Corp. v. Lewis,
138 S. Ct. 1621 (2018) .................................. passim
Mitsubishi Motors Corp. v. Soler
Chrysler-Plymouth, Inc.,
473 U.S. 614 (1985) ................................................ 5
Preston v. Ferrer,
552 U.S. 346 (2008) ................................................ 6
Sakkab v. Luxottica Retail North
America,
803 F.3d 425 (9th Cir. 2015) ................................ 11
Statutes
Cal. Civ. Code § 1751 .................................................. 7
Cal. Civ. Code § 1781(a) .............................................. 7

1
As the petition and five supporting amicus briefs
explain, there are no meaningful differences between
this case and AT&T Mobility LLC v. Concepcion, 563
U.S. 333 (2011). In both, the Ninth Circuit upheld a
California rule conditioning the enforcement of arbitration agreements on acquiescence to a procedure
that is incompatible with arbitration’s traditionally
individualized and informal nature—thereby disrupting tens of millions of arbitration agreements. As in
Concepcion, review is warranted because the Ninth
Circuit decision is fundamentally incompatible with
the FAA and this Court’s precedents.1
McArdle does not dispute that Concepcion prohibits States from conditioning enforcement of arbitration agreements on the availability of class-wide injunctions through class-action procedures. Opp. 21.
Nor does he dispute the many similarities between the
process for adjudicating a public-injunction claim and
the procedure for resolving a request for a class-wide
injunction.
In suggesting that a public-injunction claim is
nonetheless consistent with the “traditional individualized arbitration” protected by the FAA (Epic Sys.
Corp. v. Lewis, 138 S. Ct. 1621, 1623 (2018)), McArdle
relies entirely on the Ninth Circuit’s technical distinction—that the third parties for whom the public injunction is sought are not formally joined as parties.
That cramped reading of Concepcion elevates
form, ignores substance, and defies this Court’s directive that “like cases should generally be treated
alike” under the FAA. Epic, 138 S. Ct. at 1623.

1

The Petition’s Rule 29.6 Statement remains accurate.

2
Indeed, McArdle does not deny that the FAA
would preempt a state law conditioning enforcement
of arbitration agreements on inclusion of a provision
permitting, at the claimant’s request, joinder of five or
ten similarly situated parties into a single arbitration
proceeding. A public-injunction proceeding assessing
the propriety of injunctive relief affecting 100,000 or
1,000,000 differently situated non-parties is much less
individualized in any real-world sense. But to
McArdle and the Ninth Circuit, that massive publicinjunction proceeding is fully compatible with the individualized arbitration protected by the FAA, even
though the proceeding with five parties is not.
McArdle takes a similar tack in downplaying the
tremendous practical importance of the issue presented. Eight organizations representing a broad array of industries collectively filed five amicus briefs
explaining the harmful consequences of allowing the
McGill rule to stand, but McArdle barely mentions
them.
He instead argues that the concerns expressed
about the adverse effects of the McGill rule are insignificant because parties could agree to arbitrate public-injunction claims or carve them out for parallel
proceedings in court. But the same was true in Concepcion: Under California’s Discover Bank rule, parties could agree to class arbitration or to permit class
actions to proceed in court. Yet this Court saw that as
part of the problem, not a reason for denying review.
So too here, each of the alternatives mandated by the
regime McArdle advocates deprives the parties of the
benefits of arbitration protected by the FAA.
The conflict between the decision below and this
Court’s FAA precedents—and the great importance of
the issue—are clear. This Court should grant review.

3
A. The Decision Below Defies This Court’s
FAA Precedents.
California’s insistence on the availability of a process for pursuing a public injunction is just as inconsistent with the FAA as the State’s prior insistence on
the availability of class-action proceedings. Pet. 14-20;
see also Chamber Br. 19-22; American Bankers Br.
19-20.
McArdle responds that public-injunction claims
should be treated differently than class actions for
purposes of FAA preemption because (1) public injunctions do not require formal joinder of absent parties;
(2) California describes the right to seek a public injunction as “substantive” not procedural; and (3) complex individualized claims are subject to arbitration.
These attempts to distinguish Concepcion are
meritless.
1. McArdle insists that the FAA preempts only
state-law rules that “would require multi-party or collective procedures.” Opp. 20. For that reason, he asserts, the Ninth Circuit’s preemption analysis does
not depart from Epic’s holding that the FAA protects
arbitration agreements “‘providing for individualized
proceedings.’” Id. at 19 (quoting Epic, 138 S. Ct. at
1619) (emphasis added by McArdle).
But the word “proceedings” cannot bear the
weight McArdle places on it. He ignores that there is
nothing “individualized” (Epic, 138 S. Ct. at 1619)
about a public-injunction claim seeking relief for tens
of thousands or millions of third parties other than the
claimant (because public injunctions are solely for the
benefit of third parties, see Pet. 5-6).

4
Could the FAA’s protection for “individualized
proceedings” be so formalistic that it preempts a state
law requiring arbitration agreements to permit joinder in a single arbitration proceeding of up to five similar claims—but at the same time ignores the far more
dramatic changes to an arbitral proceeding from a
claim seeking wide-ranging injunctive relief for millions of third parties? Pet. 21; see also Chamber Br.
24.
Such a wooden reading of Epic ignores the Court’s
repeated warning that courts must guard against the
“‘great variety of devices and formulas’” infringing the
FAA’s protections, including being “alert to new devices and formulas that would achieve much the same
result.” Epic, 138 S. Ct. at 1623 (quoting Concepcion,
563 U.S. at 342). Requiring arbitration of a public-injunction claim, like a Rule 23(b)(2) class action, triggers the FAA’s protections because it would cause “the
virtues Congress originally saw in arbitration, its
speed and simplicity and inexpensiveness, [to be]
shorn away and arbitration * * * wind[ing] up looking
like the litigation it was meant to displace.” Epic, 138
S. Ct. at 1623.
McArdle also notes that adjudication of a publicinjunction claim lacks preclusive effect on absent
third parties. Opp. 21. But the claim’s lack of preclusive effect says nothing about whether the proceeding
is consistent with the individualized arbitration protected by the FAA.
To the extent it is relevant, the lack of preclusive
effect “makes public-injunctions even less suited to arbitration than class actions” (CTIA Br. 6-7), because it
permits different plaintiffs and their counsel to sub-

5
ject the arbitration agreement counter-party to multiple public injunction proceedings based on the same
underlying conduct.
2. McArdle’s assertion that the FAA has no
preemptive effect with respect to state “substantive”
rights (Opp. 20) misreads this Court’s precedents.
For example, McArdle depicts this Court’s statement that “States cannot require a procedure that is
inconsistent with the FAA” as disavowing preemption
of any state-law rules labeled as substantive. Opp. 20
(quoting Concepcion, 563 U.S. at 351) (emphasis is
McArdle’s). But Concepcion expressly rejected a substance/procedure distinction, reiterating that the
FAA’s policy favoring arbitration applies “notwithstanding any state substantive or procedural policies
to the contrary.” Concepcion, 563 U.S. at 346 (citation
omitted).
McArdle is equally mistaken in invoking this
Court’s statement that “[b]y agreeing to arbitrate a
statutory claim, a party does not forgo the substantive
rights afforded by the statute; it only submits to their
resolution in an arbitral forum.” Opp. 13-14 (quoting
Mitsubishi Motors Corp. v. Soler Chrysler-Plymouth,
Inc., 473 U.S. 614, 628 (1985)).
That “effective-vindication” exception to the enforcement of arbitration agreements applies at most
to federal statutory rights, not to state ones—it is
available only when “the FAA’s mandate has been
‘overridden by a contrary congressional command.’”
American Express Co. v. Italian Colors Restaurant,
570 U.S. 228, 233 (2013) (emphasis added; citation
omitted).

6
Indeed, even the dissent in American Express,
which would have read the effective-vindication exception more broadly with respect to federal statutory
claims, recognized that this exception does not apply
to state-law claims: “a state law * * * could not possibly implicate the effective-vindication rule” because
“[w]e have no earthly interest (quite the contrary) in
vindicating [a state] law” that is inconsistent with the
FAA. 570 U.S. at 252 (Kagan, J., dissenting).
McArdle is similarly mistaken in seeking refuge
in the Court’s observation in Preston v. Ferrer, 552
U.S. 346 (2008), that the plaintiff’s arbitration agreement “relinquishe[d] no substantive rights the [California Talent Agencies Act] or other California law
may accord him.” Id. at 359. That comment merely described the nature of the question presented. See ibid.
(the “petition presents precisely and only a question
concerning the forum in which the parties’ dispute
will be heard”). The Court’s decision—which predated
the on-point holding in American Express—did not address whether the FAA requires the enforcement of
arbitration agreements that waive certain state-law
remedies, much less a remedy authorizing the claimant to seek relief for the benefit of third parties.2
Moreover, the cases on which McArdle relies all
involve state-law remedies for a plaintiff’s own individual claim. They give not the slightest hint that a
McArdle reads (Opp. 13) too much into Booker v. Robert Half
International, Inc., 413 F.3d 77 (D.C. Cir. 2005). In addition to
pre-dating American Express, the D.C. Circuit’s decision did not
address whether the effective-vindication exception applies to
state statutory claims, because the “parties [did] not dispute that
the arbitration agreement’s bar on punitive damages is unenforceable.” Id. at 83. The sole issue on appeal was whether the
concededly unenforceable provision was severable. Id. at 83-86.
2

7
State can avoid the FAA, and Concepcion, simply by
declaring that individuals have an unwaivable “substantive statutory remedy” (Opp. 21) to seek relief on
behalf of others.
This Court squarely rejected that contention in
DIRECTV, Inc. v. Imburgia, 136 S. Ct. 463 (2015). Rather than relying on the Discover Bank rule invalidated in Concepcion, the California Court of Appeal in
that case deemed the class-action waiver unenforceable because of state laws giving plaintiffs “the right
* * * to bring a class action for violations of that Act”
(id. at 467 (citing Cal. Civ. Code § 1781(a))), and making that “right” unwaivable (ibid. (citing Cal. Civ.
Code § 1751)). The Court found the statutory grant of
a right to bring class claims irrelevant: “As far as
those sections apply to class-arbitration waivers, they
embody the Discover Bank rule.” Ibid.
In short, whether characterized as “substantive”
or “procedural,” a rule conditioning arbitration on the
ability to obtain relief for numerous third parties impermissibly “attack[s] (only) the individualized nature
of the arbitration proceedings.” Epic, 138 S. Ct. at
1622.
3. McArdle next observes that substantively complex antitrust, RICO, or securities claims are arbitrable despite requiring consideration of evidence relating to third parties and often involving high stakes.
Opp. 22-24. But even in these factually complex oneon-one claims, the focus remains on the individual’s
claim. By contrast, McArdle concedes (Opp. 4) that the
sole purpose of a public injunction is to benefit third
parties—indeed, the “general public” as a whole. See
Pet. 5-6.

8
This fundamental shift in the focus of the proceeding from the claimant to third parties is what interferes with the “traditional individualized arbitration”
protected by the FAA—in precisely the same manner
as the shift from bilateral to class or collective arbitration. Epic, 138 S. Ct. at 1623; see Pet. 14-20.3
B. The Issue Is Tremendously Important.
Just as McArdle cannot distinguish Concepcion on
the merits, his attempts to downplay the importance
of the issue consist primarily of arguments considered
and rejected in Concepcion.
1. As amici detail, McGill and Blair will impact
tens (or hundreds) of millions of consumer arbitration
agreements in California across a wide variety of industries. Chamber Br. 4; CTIA Br. 2, 8-9; American
Bankers Br. 2, 12; DRI Br. 4, 19-20.
Attempting to downplay this dramatic effect,
McArdle contends that companies can simply “comply
with McGill” by revising their arbitration agreements,
either to “allow[] arbitration of public-injunction
claims” or to carve out “such claims” for “judicial proceedings.” Opp. 26.
But the same was true in Concepcion. As this
Court observed, the Discover Bank rule did “not require classwide arbitration” because parties could
agree instead to litigate class actions in court. 563
U.S. at 346, 351. The Court nonetheless held that such
a result “is not arbitration as envisioned by the FAA,
lacks its benefits, and therefore may not be required

McArdle’s discussion of private injunctive relief (Opp. 23) ignores that the assessment and continuing supervision of a public
injunction is far more complex. See Pet. 18.
3

9
by state law.” Id. at 351. And in Epic, the Court reiterated that even though “in recent years some parties
have sometimes chosen to arbitrate on a classwide basis,” that fact does nothing to diminish “Concepcion’s
essential insight” that “courts may not allow a contract defense to reshape traditional individualized arbitration by mandating classwide arbitration procedures without the parties’ consent.” 138 S. Ct. at 1623.
Nor is it any answer to the disruption caused by
McGill and Blair that companies can carve out publicinjunction claims from arbitration, as some companies
have done by adding “severability provisions” to their
arbitration clauses. Opp. 32. That is simply a stopgap
measure to keep arbitration agreements enforceable
until this Court resolves the issue—not a preference
for excluding these claims from arbitration. Bifurcated proceedings—with either class-action or publicinjunction claims proceeding in court and remaining
claims proceeding in arbitration—impermissibly frustrate Congress’s purpose “to promote arbitration.”
Concepcion, 563 U.S. at 345.
Contrary to McArdle’s suggestion that it is difficult to “satisfy McGill’s detailed criteria” defining a
public injunction (Opp. 28), it is easy to tack on a public-injunction claim in a consumer dispute. See DRI
Br. 9-10; Chamber Br. 6-7. Plaintiffs have done so
with increasing frequency in the wake of Blair and the
decision below. Pet. 25. Indeed, in the short time since
the petition was filed, plaintiffs have filed at least 21
additional complaints expressly alleging that they
seek a public injunction.
Consequently, in virtually every consumer case, a
company faces judicial litigation of a public-injunction
claim—or an expensive and time-consuming fight

10
over whether the complaint truly seeks a public injunction—even if the parties arbitrate the damages
claims. The company thus must endure the very burdens, expenses, and delays of judicial dispute-resolution that arbitration was intended to avoid—such as
unrestricted discovery, plenary motion practice, and
potentially multiple rounds of appeals. See Concepcion, 563 U.S. at 348.4
A regime mandating bifurcated proceedings as the
alternative to arbitrating public-injunction claims
thus deprives companies of the benefits of arbitration.
Shorn of those benefits, companies lack the incentive
to continue the heavy subsidies of individual arbitration that make it so accessible for consumers. Chamber Br. 8-9 (discussing subsidies for “arbitration costs”
and “special inducements” for “consumers who arbitrate” available under consumer arbitration clauses);
CTIA Br. 10-11; DRI Br. 19-20; Pet. 29-30.
In other words, what States cannot do directly—
impede individual arbitration of consumer disputes—
the McGill rule does indirectly by making consumer
arbitration agreements cost prohibitive. Here, as in
Concepcion, a regime in which parties must choose between arbitrating public-injunction claims and resolving those claims in a parallel litigation proceeding is
a poor substitute for “arbitration as envisioned by the
FAA” and “therefore may not be required by state
law.” 563 U.S. at 351.

There is no guarantee that, as McArdle assumes (Opp. 27), litigation of a public-injunction claim in court would proceed only
if plaintiffs prevail in arbitration. The decision McArdle cites
notes that whether to impose a stay of court proceedings is left
to the court’s discretion and was a “close call.” Eiess v. USAA Fed.
Savings Bank, 404 F. Supp. 3d 1240, 1260-61 (N.D. Cal. 2019).
4

11
2. McGill and Blair extend to the consumer context California’s and the Ninth Circuit’s misguided
approach to FAA preemption of representative PAGA
claims. Pet. 26-29; see also Chamber Br. 11-14; CTIA
Br. 18-20. McArdle admits that “Blair’s preemption
analysis is generally similar” to the Ninth Circuit’s
FAA analysis in Sakkab v. Luxottica Retail North
America, 803 F.3d 425 (9th Cir. 2015). Opp. 8 n.1.
That admission further confirms the importance
of the question presented—acknowledging that the
Court’s resolution of the issue here will provide important guidance regarding the permissibility under
the FAA of California’s rule requiring arbitration
agreements to allow assertion of PAGA claims on behalf of thousands, or even millions, of employees.
Given the frequency of such claims (Pet. 28), the
Court’s ruling will therefore affect not just consumer
arbitration agreements but also millions of arbitration agreements in the employment context.
3. McArdle notes the absence of a “conflict among
the lower courts.” Opp. 2. But this Court has not hesitated to grant review in other arbitration cases in the
absence of a conflict. CTIA Br. 14-17 (collecting examples).
Indeed, in Concepcion itself the Court did not indicate that it granted review in order to resolve a circuit split. See 563 U.S. at 338. It is far more likely that
the Court granted certiorari because it was persuaded
that AT&T’s arbitration provision and others like it
were “fully enforceable under the law of most States”
but not in California, resulting in “the kind of Balkanization that Congress plainly intended to overcome
when it enacted the FAA.” Reply Brief for the Petitioner 10, Concepcion, 2010 WL 1787380 (U.S. May 3,
2010).

12
And McArdle does not dispute that the effects of
McGill and Blair cannot be limited to California. As
amici warn, the ripple effects of “McGill and Blair extend[] nationwide,” because, as a practical matter, the
rules in California, the Nation’s most populous State,
affect companies’ standardized practices. Chamber
Br. 10-11; see also CTIA Br. 17; DRI Br. 20-22.
Moreover, the likelihood of a conflict developing is
diminished substantially by the “forum shopping” encouraged by Blair and the decision below. DRI Br. 21.
Companies doing business nationwide, like AT&T,
will inevitably find themselves the targets of consumer lawsuits in California whenever plaintiffs’
counsel can find a single California plaintiff to assert
a public-injunction claim. Ibid.; see American Bankers Br. 7 & n.4 (noting the financial incentives to bring
public-injunction claims).
Finally, McArdle observes (Opp. 2) that the California Supreme Court and the court below are unanimous in their conclusion that the FAA does not
preempt the McGill rule. That is no obstacle to review;
it is yet another similarity with Concepcion, in which
the Ninth Circuit and California Supreme Court were
united in their (erroneous) view of FAA preemption.
See 584 F.3d 849 (2009); Discover Bank, 113 P.3d 1100
(2005).

13
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted.
ANDREW J. PINCUS
Counsel of Record
EVAN M. TAGER
ARCHIS A. PARASHARAMI
KEVIN RANLETT
DANIEL E. JONES
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
apincus@mayerbrown.com
Counsel for Petitioners
MAY 2020

